Washington, D.C. 20530

August 25, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Public Watchdogs v. Southern California Edison Company, et al.,
S.Ct. No. 20-1676
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on May 28, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

20-1676
PUBLIC WATCHDOGS
SOUTHERN CALIFORNIA EDISON COMPANY, ET
AL.

L. RACHEL LERMAN
BARNES & THORNBURG LLP
2029 CENTURY PARK EAST
LOS ANGELES, CA 90067
BRIAN E. CASEY
BARNES & THORNBURG LLP
201 S. MAIN ST.
SUITE 400
SOUTH BEND, IN 46601
574 233-1171
BRIAN.CASEY@BTLAW.COM
CHARLES LA BELLA
BARNES & THORNBURG LLP
655 W. BROADWAY
STE. 1300
SAN DIEGO, CA 92101

